AUDIT OF THE OFFICE ON VIOLENCE AGAINST

  WOMEN GRANTS AWARDED TO THE EIGHT

 NORTHERN INDIAN PUEBLOS COUNCIL, INC.

     SAN JUAN PUEBLO, NEW MEXICO


        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



       Audit Report GR-60-13-004

             February 2013

        AUDIT OF THE OFFICE ON VIOLENCE AGAINST

          WOMEN GRANTS AWARDED TO THE EIGHT

         NORTHERN INDIAN PUEBLOS COUNCIL, INC. 

             SAN JUAN PUEBLO, NEW MEXICO


                          EXECUTIVE SUMMARY


      The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of six grants totaling $4,178,000 awarded
by the Office on Violence Against Women (OVW) to the Eight Northern
Indian Pueblos Council, Inc. (ENIPC), as shown in Exhibit 1.

  EXHIBIT 1: GRANTS AWARDED TO THE ENIPC
                                         PROJECT         PROJECT END
    AWARD NUMBER        AWARD DATE      START DATE          DATE        AMOUNT
  2005-WH-AX-0071        09/12/05        09/01/05          08/31/11     $ 553,000
  2006-WL-AX-0029        09/15/06        07/01/06          03/31/11       900,000
  2007-TW-AX-0063        09/17/07        09/01/07          02/28/11       675,000
  2008-TW-AX-0036        09/19/08        08/01/08          07/31/11       900,000
  2010-TW-AX-0056        09/15/10        10/01/10          09/30/13       900,000
  2010-WH-AX-0057        09/20/10        10/01/10          09/30/13       250,000
                                                              Total: $4,178,000
  Source: The Office of Justice Programs’ (OJP) Grants Management System

Background

       Created in 1995, the OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. The OVW’s stated mission is to provide federal
leadership in developing the nation’s capacity to reduce violence against
women, and administer justice for and strengthen services to victims.
Currently, the OVW administers 3 formula-based and 18 discretionary grant
programs, established under the Violence Against Women Act and
subsequent legislation.

      The ENIPC is a nonprofit consortium of the Tribal Coalitions of the
Northern New Mexico Indian Pueblos of Nambe, Picuris, Pojoaque, San
Ildefonso, San Juan, Santa Clara, Taos, and Tesuque. The ENIPC serves the
men, women, and children in the Pueblos and other constituents by offering
a broad variety of economic, educational, and social service programs
designed to meet their unique needs. The stated mission of the ENIPC is to
promote and facilitate improvement of educational opportunities, healthcare,
economic development, housing conditions, and the environment for the
Tribal Members of the Pueblos.

       The ENIPC operates the PeaceKeepers Domestic Violence Program,
which strives to provide culturally appropriate comprehensive services to
Native Americans from all eight Pueblos. These services include victim peer
advocacy and support groups, legal counsel, criminal prosecution on behalf
of tribes, batter re-education, probation supervision, child and adult
counseling, and sexual abuse and stalking advocacy. 1

       This audit includes six grants made under the OVW’s discretionary
grant programs. Grant Nos. 2005-WH-AX-0071 and 2010-WH-AX-0057
were awarded under the OVW's Transitional Housing Grant Program
(Housing Program). The Housing Program focuses on a holistic, victim-
centered approach to provide transitional housing services that move
individuals into permanent housing. The primary purpose of the Housing
Program is to provide assistance to minors, adults, and their dependents
who are homeless, or in need of transitional housing or other housing
assistance as a result of fleeing a situation of domestic violence, and for
whom emergency shelter services or other crisis intervention services are
unavailable or insufficient.

       Grant No. 2006-WL-AX-0029 was made under the OVW's Legal
Assistance for Victims Grant Program (Legal Program). The Legal Program
strengthens civil and criminal legal assistance for victims of sexual assault,
stalking, domestic violence, and dating violence through collaborative
programs which provide victims with representation and legal advocacy in
family, immigration, administrative agency, or housing matters, protection
or stay-away order proceedings, and other similar areas. The Legal Program
increases the availability of civil and criminal legal assistance in order to
provide effective aid to victims who are seeking relief in legal matters arising
because of abuse or violence.

      Grant Nos. 2007-TW-AX-0063, 2008-TW-AX-0036, and
2010-TW-AX-0056 were awarded under the OVW's Grants to Indian Tribal
Governments Program (Tribal Program). The Tribal Program awards funding
to develop and enhance effective plans for tribal governments to respond to
violence committed against Indian women. Goals of the program are to
strengthen the tribal criminal justice system, improve services available to
help Indian women who are victims of violence, create community education
and prevention campaigns, address the needs of children who witness

      1
         Statements of mission and intent regarding the OVW and the ENIPC have been
taken from the agencies’ website or official publications directly (unaudited).


                                          ii
domestic violence, provide supervised visitation and safe exchange
programs, provide transitional housing assistance, and provide legal advice
and representation to survivors of violence who need assistance with legal
issues caused by the abuse or the violence they suffered.

Our Audit Approach

      Over the course of our work, we learned that the OVW Grant Manager
for the awards in this audit was a former employee of the ENIPC, having left
the ENIPC in 2005. 2 Though a new Grant Manager was assigned to the
ENIPC’s open awards during our audit, we note that grants being managed
for any period of time by an individual who is a former employee of the
award recipient could present the appearance, whether actual or perceived,
of a conflict of interest.

      The objectives of our audit are to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, including personnel and indirect costs, (4) budget
management and control, (5) financial status and progress reports,
(6) compliance with grant requirements, (7) program performance and
accomplishments, and (8) closeout activity. We determined that property
management, matching, and program income were not applicable to these
awards.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in this report, the criteria
we audit against are contained in the OJP Financial Guide, the 2012 OVW
Financial Grants Management Guide, and the award documents.

      We examined the ENIPC’s accounting records, financial and progress
reports, and operating policies and procedures, and found:

      •	     there was no process in place to effectively ensure that charges to
             the grants are allowable;

      •	     $347,578 in unallowable payroll costs for Grant Nos.
             2005-WH-AX-0071, 2007-TW-AX-0063, 2008-TW-AX-0036, and
             2010-TW-AX-0056;

      •	     $81,068 in unallowable fringe costs for Grant Nos.
             2005-WH-AX-0071, 2007-TW-AX-0063, 2008-TW-AX-0036, and
             2010-TW-AX-0056;

      2
           This information was voluntarily disclosed by the Grant Manager.


                                              iii
     •	   $13,970 in unsupported training and travel costs for Grant Nos.
          2005-WH-AX-0071, 2008-TW-AX-0036, and 2010-TW-AX-0056;

     •	   $83,328 in unallowable training and travel costs for Grant Nos.
          2005-WH-AX-0071, 2006-WL-AX-0029, 2007-TW-AX-0063,
          2008-TW-AX-0036, and 2010-TW-AX-0056;

     •	   $15,011 in unallowable property, automobile, and liability
          insurance charges for Grant Nos. 2005-WH-AX-0071,
          2007-TW-AX-0063, 2010-TW-AX-0056, and 2010-WH-AX-0057;

     •	   $25,137 in indirect cost charges in excess of the amount approved
          by the OVW for Grant Nos. 2005-WH-AX-0071, 2006-WL-AX-0029,
          2007-TW-AX-0063, and 2008-TW-AX-0036;

     •	   $7,174 in unallowable budget transfers for Grant No.

          2005-WH-AX-0071;


     •	   publications were not pre-approved as required by the OVW;

     •	   the ENIPC did not ensure that publications contained the required
          language from the OVW;

     •	   Transitional Housing Policies and Procedures were not submitted to
          the OVW for approval as required, and;

     •	   unallowable transfers between awards at closeout.

      This report contains 12 findings and 11 recommendations, which are
detailed in the Findings and Recommendations section. Our audit objectives,
scope, and methodology are discussed in Appendix I.




                                      iv
                                    Table of Contents


INTRODUCTION ................................................................................ 1

  Background.......................................................................................1

  Our Audit Approach............................................................................3

FINDINGS AND RECOMMENDATIONS................................................ 5

 Prior Audits .......................................................................................5

 Internal Control Environment ..............................................................6

 Drawdowns .......................................................................................7

 Grant Expenditures ............................................................................8

   Direct Costs ...................................................................................8

   Indirect Costs ............................................................................... 12

 Budget Management and Control ....................................................... 13

 Grant Reporting............................................................................... 13

   Financial Reporting........................................................................ 14

   Progress Reports........................................................................... 16

 Compliance with Grant Requirements ................................................. 18

 Program Performance and Accomplishments ....................................... 19

 Closeout Activity.............................................................................. 21

 Conclusion ...................................................................................... 22

APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY............... 24

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS............ 26

APPENDIX III – EIGHT NORTHERN INDIAN PUEBLOS COUNCIL

RESPONSE TO THE DRAFT AUDIT REPORT ...................................... 27

APPENDIX IV – OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE 

TO THE DRAFT AUDIT REPORT........................................................ 33

APPENDIX V – ANALYSIS AND SUMMARY OF ACTIONS NECESSARY

TO CLOSE THE REPORT ................................................................... 36

        AUDIT OF THE OFFICE ON VIOLENCE AGAINST

          WOMEN GRANTS AWARDED TO THE EIGHT

         NORTHERN INDIAN PUEBLOS COUNCIL, INC. 

             SAN JUAN PUEBLO, NEW MEXICO


                              INTRODUCTION


      The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of six grants totaling $4,178,000 awarded
by the Office on Violence Against Women (OVW) to the Eight Northern
Indian Pueblos Council, Inc. (ENIPC) as shown in Exhibit 1.

EXHIBIT 1: GRANTS AWARDED TO THE ENIPC
                                       PROJECT         PROJECT END
    AWARD NUMBER       AWARD DATE     START DATE           DATE        AMOUNT
  2005-WH-AX-0071       09/12/05       09/01/05          08/31/11     $ 553,000
  2006-WL-AX-0029       09/15/06       07/01/06          03/31/11         900,000
  2007-TW-AX-0063       09/17/07       09/01/07          02/28/11         675,000
  2008-TW-AX-0036       09/19/08       08/01/08          07/31/11         900,000
  2010-TW-AX-0056       09/15/10       10/01/10          09/30/13         900,000
  2010-WH-AX-0057       09/20/10       10/01/10          09/30/13         250,000
                                                             Total:   $4,178,000
Source: The Office of Justice Programs (OJP) Grants Management System

Background

       Created in 1995, the OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. The OVW’s stated mission is to provide federal
leadership in developing the nation’s capacity to reduce violence against
women, and administer justice for and strengthen services to victims.
Currently, the OVW administers 3 formula-based and 18 discretionary grant
programs, established under the Violence Against Women Act and
subsequent legislation.

      The OVW’s discretionary programs work to support victims and hold
perpetrators accountable through promoting a coordinated community
response. Funding is provided to local and state and tribal governments,
courts, non-profit organizations, community-based organizations, secondary
schools, institutions of higher education, and state and tribal coalitions. The
OVW intends for these entities to work toward developing more effective
responses to violence against women through activities that include direct
services, crisis intervention, transitional housing, legal assistance to victims,
court improvement, and training for law enforcement and courts.
      The ENIPC is a nonprofit consortium of the Tribal Coalitions of the
Northern New Mexico Indian Pueblos of Nambe, Picuris, Pojoaque, San
Ildefonso, San Juan, Santa Clara, Taos, and Tesuque. The ENIPC was
incorporated as a New Mexico nonprofit organization in 1962. Since that
time, the Tribal Governors have met on a monthly basis to discuss common
issues which directly affect their centuries-old communities. The ENIPC
serves the men, women, and children in the Pueblos and other constituents
by offering a broad variety of economic, educational, and social service
programs designed to meet their unique needs. The stated mission of the
ENIPC is to promote and facilitate improvement of educational opportunities,
healthcare, economic development, housing conditions, and the environment
for the Tribal Members of the Pueblos.

      The ENIPC operates the PeaceKeepers Domestic Violence Program,
which strives to provide culturally appropriate comprehensive services to
Native Americans from all eight Pueblos. Its free services include victim
peer advocacy and support groups, legal counsel, criminal prosecution on
behalf of tribes, batterer re-education, probation supervision, child and adult
counseling, and sexual abuse and stalking advocacy. The PeaceKeepers
Domestic Violence Program collaborates with tribal governments, local law
enforcement and nonprofit organizations and provides special events,
workshops, trainings, and presentations which address all facets of domestic
violence. 1

       This audit includes six grants made under the OVW’s discretionary
grant programs. Grant Nos. 2005-WH-AX-0071 and 2010-WH-AX-0057
were awarded under the OVW's Transitional Housing Grant Program
(Housing Program). The Housing Program focuses on a holistic, victim-
centered approach to provide transitional housing services that move
individuals into permanent housing. The primary purpose of the Housing
Program is to provide assistance to minors, adults, and their dependents
who are homeless, or in need of transitional housing or other housing
assistance as a result of fleeing a situation of domestic violence; and for
whom emergency shelter services or other crisis intervention services are
unavailable or insufficient.

       Grant No. 2006-WL-AX-0029 was made under the Legal Assistance for
Victims Grant Program (Legal Program). The Legal Program strengthens
civil and criminal legal assistance for victims of sexual assault, stalking,
domestic violence, and dating violence through innovative, collaborative
programs. These programs provide victims with representation and legal
advocacy in family, immigration, administrative agency, or housing matters,
protection or stay-away order proceedings, and other similar matters. The
Legal Program increases the availability of civil and criminal legal assistance

      1
         Statements of mission and intent regarding the OVW and the ENIPC have been
taken from the agencies’ website or official publications directly (unaudited).


                                          2

in order to provide effective aid to victims who are seeking relief in legal
matters arising because of abuse or violence.

       Grant Nos. 2007-TW-AX-0063, 2008-TW-AX-0036, and
2010-TW-AX-0056 were awarded under the Grants to Indian Tribal
Governments Program (Tribal Program). The Tribal Program awards funding
to develop and enhance effective plans for tribal governments to respond to
violence committed against Indian women. Specific goals of the tribal
program include strengthening the tribal criminal justice system, improving
services available to help Indian women who are victims of violence,
creating community education and prevention campaigns, addressing the
needs of children who witness domestic violence, providing supervised
visitation and safe exchange programs, providing transitional housing
assistance, and providing legal advice and representation to survivors of
violence who need assistance with legal issues caused by the abuse or the
violence they suffered.

Our Audit Approach

      Over the course of our work, we learned that the OVW Grant Manager
for the awards in this audit was a former employee of the ENIPC, having left
the ENIPC in 2005. 2 Though a new Grant Manager was assigned to the
ENIPC’s open awards during our audit, we note that grants being managed
for any period of time by an individual who is a former employee of the
award recipient could present the appearance, whether actual or perceived,
of a conflict of interest.

      The objectives of our audit are to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, including personnel and indirect costs, (4) budget
management and control, (5) financial status and progress reports,
(6) compliance with grant requirements, (7) program performance and
accomplishments, and (8) closeout activity. We determined that property
management, matching, and program income were not applicable to these
awards.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide, the 2012 OVW
Financial Grants Management Guide, and the award documentation. 3 We
tested the ENIPC’s:

      2
          This information was voluntarily disclosed by the Grant Manager.
      3
         In February 2012, the OVW issued the 2012 OVW Financial Grants Management
Guide, which is applicable to Grant Nos. 2010-TW-AX-0056 and 2010-WH-AX-0057. The
OJP Financial Guide is applicable to Grant Nos. 2005-WH-AX-0071, 2006-WL-AX-0029,
2007-TW-AX-0063, and 2008-TW-AX-0036.


                                             3

   •	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard grant funds and ensure compliance with the
      terms and conditions of the grant;

   •	 drawdowns to determine whether grant drawdowns were adequately
      supported and if the ENIPC was managing grant receipts in accordance
      with federal requirements;

   •	 grant expenditures to determine the accuracy and allowability of
      costs charged to the grant;

   •	 budget management and control to determine the ENIPC’s 

      compliance with the costs approved in the grant budget;


   •	 Federal Financial Reports (FFR) and progress reports to
      determine if the required reports were submitted in a timely manner
      and accurately reflect grant activity;

   •	 grant compliance to determine whether the ENIPC was compliant
      with grant requirements;

   •	 program performance and accomplishments to determine if the
      ENIPC is capable of meeting the grant objectives; and

   •	 closeout activity to determine if grants which had reached their end
      date were appropriately closed.

     The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                      4

               FINDINGS AND RECOMMENDATIONS


Our audit did not disclose any indications that the ENIPC was non-compliant
in the following areas: drawdowns, financial status and progress reports,
and program performance and accomplishments. However, at the time of
our audit, we found that the ENIPC: (1) does not have a process in place to
effectively ensure that charges to the grants are allowable by the OVW,
(2) paid $347,578 in unallowable payroll costs, (3) paid $81,068 in
unallowable fringe costs, (4) paid $13,970 in unsupported training and travel
costs, (5) paid $83,328 in unallowable training and travel costs, (6) paid
$15,011 in unallowable property, automobile, and liability insurance charges,
(7) paid $25,137 in indirect cost charges in excess of the amount approved
by the OVW, (8) made $7,174 in unallowable budget transfers, (9) did not
submit publications to the OVW for review as required, (10) did not ensure
that publications contained the required language from the OVW, (11) did
not submit the Transitional Housing Policies and Procedures to the OVW for
approval as required, and (12) made unallowable transfers between awards
at closeout.


Prior Audits

      The Office of Management and Budget Circular A-133 requires that
non-federal entities that expend $500,000 or more per year in federal
funding have a single audit performed annually. We reviewed the three
most recent single audits for the ENIPC, which were for fiscal years 2009,
2010, and 2011, and have summarized the findings below.

       For the fiscal year ending March 31, 2009, the auditors reported that
the ENIPC had expended certain advanced federal grant funds in a manner
that may have violated certain restrictive provisions of the grants. These
violations were primarily related to funding from the U.S. Department of
Health and Human Services (DHHS). The auditors also reported that the
ENIPC and DHHS had resolved this issue by requiring the Council to set
aside $25,000 per quarter beginning in June 2007 for 5 years to fund the
stipulated deferred revenue balance of $500,000.




                                      5

The auditors also identified two findings:

   •	   Management does not currently require employees to record their
        actual hours worked for each program on their timecards.
        Management's accounting system pays employees based on
        percentages assigned rather than actual hours worked. The
        percentages are not reconciled and revised quarterly.

   •	   The ENIPC did not monitor compliance with all requirements of a U.S.
        Department of Education award.

     The findings above were not related to Department of Justice grants,
and were reported as resolved in the fiscal year 2010 single audit.

      For the fiscal year ending March 31, 2010, the auditors reported no
findings related to federal awards and for the fiscal year ending March 31,
2011, no findings were reported.

      As the findings reported in the three most recent single audits were
not applicable to Department of Justice funds, and because each finding was
addressed by ENIPC management prior to the issuance of the next year’s
single audit report, we make no recommendations in this area.

Internal Control Environment

      We reviewed the ENIPC’s internal control environment, including
procurement, receiving, and payment procedures; the payroll system; and
monitoring of contractors to determine compliance with the terms and
conditions of the grants, and to assess risk.

       The ENIPC maintains its own policies and procedures, and utilizes a
multi-layer approval process documenting the receipt of items purchased,
and the payment of invoices. We reviewed 200 direct cost transactions and
determined that sampled invoices were generally reviewed and properly
approved by ENIPC supervisors prior to payment. However, we also
identified expenditures related to training, insurance, payroll, and fringe
benefits which were not budgeted or approved as required by the OVW.
While we expand on the associated questioned costs in the Direct Costs
section of this report, we also recommend that the ENIPC draft and
implement policy to ensure that future charges to federal awards are
allowable and approved as required by the granting agency.

      We reviewed ENIPC payroll procedures and determined that employees
are paid bi-weekly. Employees prepare and sign timesheets which are
submitted to the Program Director for review at the end of the pay period.
The Program Director reviews the timesheet for accuracy, and approves the
timesheet if it is determined that the hours claimed are correct.


                                       6

       To determine the ENIPC’s policies related to the monitoring of
contractors, we obtained a copy of the Domestic Violence Program Operation
Policies and Procedures. The majority of contracted expenses consist of
attorneys hired through the programs to provide legal services to victims,
and payment to the contracted attorneys is based on timesheets or activity
logs.

Drawdowns

      To determine the procedures for drawing down grant funds, we
conducted interviews with ENIPC officials. We determined that the grants
awarded to the ENIPC are reimbursement based, and are therefore subject
to the OJP Financial Guide and 2012 OVW Financial Grants Management
Guide requirements that drawdown requests be timed to ensure that federal
cash on hand is the minimum needed for disbursements or reimbursements
to be made immediately or within the next 10 days.

      We analyzed each grant in our audit to determine if the total actual
costs recorded in the accounting records were equal to, or in excess of, the
cumulative drawdowns as recorded by the OVW, and have included the
results of our analysis below.

EXHIBIT 2: ANALYSIS OF DRAWDOWNS
                       MOST RECENT       TOTAL AMOUNT     TOTAL AMOUNT
     GRANT NO.         DRAWDOWN             DRAWN          EXPENDED 4       DIFFERENCE
 2005-WH-AX-0071        03/10/11          $ 553,000        $ 552,781        $ (219)
 2006-WL-AX-0029        01/04/11            900,000          902,657           2,657
 2007-TW-AX-0063        12/07/10            675,000          679,930          4,930
 2008-TW-AX-0036        07/19/11            900,000          900,000            -
 2010-TW-AX-0056        08/10/12            768,436          784,554         16,118
 2010-WH-AX-0057        08/10/12            121,368          125,479          4,111
Source: OJP’s Grants Management System; ENIPC accounting records.

       As shown in Exhibit 2, the ENIPC was cumulatively overdrawn for
Grant No. 2005-WH-AX-0071 by $219. We determined that $208 of the
$219 in overdrawn funds was an indirect cost posting which was not entered
into the accounting records until March 31, 2011. We consider this amount
immaterial, and make no recommendations related to drawdowns. The
remaining $11 was transferred from Grant No. 2005-WH-AX-0071 to
Grant No. 2010-WH-AX-0057. We address this issue in the Closeout Activity
section of this report.




      4
          This amount includes expenditures which took place in the 10 days immediately
following the drawdown.



                                            7

Grant Expenditures

      To determine if grant expenditures were allowable, reasonable, and in
compliance with the terms and conditions of the award, we reviewed direct
and indirect costs.

Direct Costs

      As noted in the Internal Control Environment section of this report, our
review included testing of 200 direct cost expenditures. We identified the
following issues:

            •	 Individuals who were not in the approved budgets were paid
               salaries and fringe using grant funds.
            •	 Training and travel expenses were incurred which had not been
               pre-approved as required by the OVW.
            •	 Property, automobile, and liability insurance costs were paid
               using grant funds despite not having been included in the
               approved budget.

Personnel Costs

     We determined that the ENIPC had paid $347,578 to individuals who
were not included in the approved grant budgets:

      EXHIBIT 3: UNALLOWABLE PAYROLL
          GRANT NO.                           POSITION                 AMOUNT PAID
          2005-WH-AX-0071
                                 Administrative Assistant                $   16,640
          2007-TW-AX-0063
                                 Batterer’s Reeducation Coordinator          21,903
                                 Receptionist                                11,021
          2008-TW-AX-0036
                                 Grants Manager – Transitional
                                 Housing                                     17,022
                                 Prosecutor                                  53,288
                                 Community Coordinator - Outreach            62,560
                                 Receptionist                                28,583
          2010-TW-AX-0056
                              Prosecutor                                   76,429
                              Probation Officer                            38,056
                              Lead Advocate                                22,077
          Total Unallowable Payroll Costs:                              $347,578 5
      Source: ENIPC accounting records; OJP’s Grants Management System

     We contacted ENIPC officials to determine the reason for the
unbudgeted positions. For the position associated with
      5
           Throughout this report, differences in the total amounts are due to rounding.


                                               8
Grant No. 2005-WH-AX-0071, those officials reported that the
Administrative Assistant performed transitional housing services during a
time in which positions identified in the budget were vacant. The OJP
Financial Guide requires that award recipients initiate a Grant Adjustment
Notice (GAN) for a budget modification for changes in scope, duration,
activities, or other significant areas which include, but are not limited to,
making changes to the organization or staff with primary responsibility for
implementation of the award. The appropriate GAN was not submitted, and
we question the position as unallowable.

      For Grant No. 2007-TW-AX-0063, the ENIPC received approval for a
Batterer's Reeducation Coordinator on GAN 002. However, the organization
paid two positions simultaneously, and we question the amount paid for the
second position as unallowable. ENIPC officials also claimed that the
Receptionist filled in as an Administrative Assistant during a vacancy.
However, two other individuals were paid for the position of Administrative
Assistant, and the Receptionist's salary duplicates a portion of this time in
December 2009. A GAN was not submitted to obtain approval for changes
to the budget, and we question the Receptionist's salary as unallowable.

      For Grant No. 2008-TW-AX-0036, ENIPC officials claimed that the
Grants Manager, Prosecutor, and Community Coordinator filled in as
Advocates, and that the Receptionist filled in as a Program Secretary during
vacancies. Again, the appropriate GANs were not submitted as required by
the OJP Financial Guide, and we question the positions as unallowable.

      Finally, for Grant No. 2010-TW-AX-0056, ENIPC officials claimed that
the Prosecutor and Probation Officer filled in as Advocates during vacancies,
and that the Lead Advocate worked as a Community Outreach Coordinator.
As noted above, a GAN was not filed to obtain approval for the changes in
personnel, and we question the positions as unallowable.

      Additionally, we determined that the ENIPC had expended the
following fringe charges associated with the positions identified above:




                                      9

      EXHIBIT 4: UNALLOWABLE FRINGE BENEFITS

       GRANT NO.                          POSITION                AMOUNT PAID
       2005-WH-AX-0071
                             Administrative Assistant             $    4,317
       2007-TW-AX-0063
                             Batterer’s Reeducation Coordinator        6,478
                             Receptionist                              3,281
       2008-TW-AX-0036
                             Grants Manager – Transitional
                             Housing                                   3,137
                             Prosecutor                                8,380
                             Community Coordinator - Outreach         18,674
                             Receptionist                              9,787
       2010-TW-AX-0056
                            Prosecutor                               13,222
                            Probation Officer                         8,586
                            Lead Advocate                             5,206
       Total Unallowable Fringe Costs:                            $ 81,068
      Source: ENIPC accounting records; OJP’s Grants Management System

      We recommend that the OVW remedy the $347,578 in unallowable
payroll expenditures and the additional $81,068 in unallowable fringe benefit
expenditures.

Training and Travel Costs

      Grant recipients must receive prior approval from the OVW before
using grant funds to attend any training, workshops, or conferences not
sponsored by the OVW. To request approval, grantees must submit a GAN
through OJP’s Grants Management System to the OVW with a copy of the
event's brochure, curriculum, agenda, a description of the hosts or trainers,
and an estimated breakdown of costs. The GAN request should be
submitted to the OVW at least 20 days before registration for the event is
due.

       In our initial testing of direct costs, we identified expenditures for
training and associated travel not sponsored by the OVW, and which had not
been pre-approved as required by the OVW. Therefore, we expanded our
testing of training costs to include all training costs, and associated travel
costs including flights, hotels, and other incidentals as reported on the
ENIPC’s reimbursement forms. As a result of our review, we identified
significant unsupported and unallowable questioned costs, as detailed in
Exhibits 5 and 6 below.

       We identified $13,970 in training and associated travel costs that
ENIPC officials stated were for training provided by the OVW. However,
sufficient documentation to support these claims was not provided.
Therefore, we question the costs as unsupported.



                                         10

        EXHIBIT 5: UNSUPPORTED TRAINING COSTS

                        GRANT NO.                     UNSUPPORTED COSTS
         2005-WH-AX-0071                                  $ 1,042
         2006-WL-AX-0029                                        -
         2007-TW-AX-0063                                        -
         2008-TW-AX-0036                                     7,627
         2010-TW-AX-0056                                     5,301
         2010-WH-AX-0057                                        -
         Total Unsupported Training / Travel Costs:       $ 13,970
        Source: ENIPC accounting records; OJP’s Grants Management System

      We identified an additional $83,328 in unallowable training and
associated travel costs. These training events were not sponsored by the
OVW, and were not pre-approved by the OVW as required by the Special
Conditions of the awards.

       EXHIBIT 6: UNALLOWABLE TRAINING COSTS
                         GRANT NO.                    UNALLOWABLE COSTS
        2005-WH-AX-0071                                   $ 8,030
        2006-WL-AX-0029                                      29,569
        2007-TW-AX-0063                                      32,972
        2008-TW-AX-0036                                       8,573
        2010-TW-AX-0056                                       4,184
        2010-WH-AX-0057                                        -
        Total Unallowable Training / Travel Costs:        $ 83,328
       Source: ENIPC accounting records; OJP’s Grants Management System

       We recommend that the OVW remedy the $13,970 in unsupported
training and associated travel costs, and the additional $83,328 in
unallowable training and associated travel costs.

Insurance Costs

        Our review of the budget narratives for each award revealed that
insurance costs were only approved for Grant Nos. 2006-WL-AX-0029
and 2008-TW-AX-0036. However, we identified property, automobile, and
liability insurance costs charged against every award included in this audit.
Specifically, we identified $15,011 in payments made for property, liability,
and automobile insurance which were not in the approved budgets, as
shown below.




                                       11

            EXHIBIT 7: UNALLOWABLE INSURANCE COSTS 

                          GRANT NO.                  INSURANCE CHARGES
             2005-WH-AX-0071                            $   1,421
             2007-TW-AX-0063                                6,547
             2010-TW-AX-0056                                6,178
             2010-WH-AX-0057                                  865
             Total Unallowable Insurance Costs:         $ 15,011
            Source: ENIPC accounting records; OJP’s Grants Management System

       The OJP Financial Guide and the 2012 OVW Financial Grants
Management Guide state that award recipients should initiate a GAN for a
budget modification for changes in scope, duration, activities, or other
significant areas. We recommend that the OVW remedy the $15,011 in
unallowable insurance charges.

Indirect Costs

       The OJP Financial Guide defines indirect costs as the costs of an
organization that are not readily assignable to a particular project, but are
necessary to the operation of the organization and the performance of the
project. The ENIPC received an approved indirect cost rate for fiscal years
2006 to present, and budgeted indirect costs for each award in this audit.
Each OVW approved budget contains a total amount which may be charged
to indirect costs, and both the OJP Financial Guide and the 2012 OVW
Financial Grants Management Guide require that pre-approval be obtained
before transferring money into or out of the indirect cost category. We
compared total indirect expenditures to the final amounts which had been
approved by the OVW. As shown below, we determined that the ENIPC had
exceeded the allowable total for indirect costs for each closed grant in this
audit.

  EXHIBIT 8: INDIRECT COST BUDGET ANALYSIS
                            TOTAL INDIRECT          TOTAL INDIRECT
         GRANT NO.          COSTS APPROVED          COSTS CHARGED     DIFFERENCE
    2005-WH-AX-0071            $ 85,109                $ 91,394        $ 6,285
     2006-WL-AX-0029            134,706                  139,631          4,925
     2007-TW-AX-0063            103,886                  110,507          6,621
     2008-TW-AX-0036            138,513                  145,819          7,306
   Total Unallowable Indirect Costs:                                   $25,137
  Source: ENIPC accounting records, OJP Financial Guide.

      We recommend that the OVW remedy the $25,137 in unallowable
indirect cost expenditures.




                                         12

Budget Management and Control

      For each grant, the ENIPC received an approved budget broken down
by categories including Personnel, Fringe Benefits, Travel, Equipment,
Supplies, Contractual, and Other. If changes are subsequently made, the
OJP Financial Guide and the 2012 OVW Financial Grants Management Guide
require that the recipient initiate a GAN for budget modification if the
proposed cumulative change to direct expenditures is greater than 10
percent of the total award amount.

      We conducted detailed analysis of direct expenditures by budget
category as identified by the ENIPC, and determined that the ENIPC was
cumulatively over budget in the Personnel, Fringe Benefits, and Supplies
categories for Grant No. 2005-WH-AX-0071 for a total of $7,174 in excess of
the 10 percent which is allowable by the granting agency:

 EXHIBIT 9: GRANT NO. 2005-WH-AX-0071 BUDGET ANALYSIS
   BUDGET CATEGORY     AMOUNT BUDGETED AMOUNT EXPENDED       AMOUNT OVER BUDGET
  Personnel                $ 150,480           $ 200,723         $ 50,243
  Fringe Benefits             34,572              40,896            6,324
  Travel                      34,497              26,538              -
  Equipment                    6,100                 -                -
  Supplies                    11,520              17,427            5,907
  Contractual                 48,820              11,480              -
  Other                      181,902             164,542              -
  Total Over Budget Amount of Direct Expenditures                  62,474
  Allowable 10% of Total Project Costs                             55,300
  TOTAL UNALLOWABLE AMOUNT:                                      $ 7,174
 Source: ENIPC accounting records; OJP’s Grants Management System.

     We recommend that the OVW remedy the $7,174 in unallowable 

 budget transfers. 


Grant Reporting

      We reviewed the Federal Financial Reports (FFRs) and Categorical
Assistance Progress Reports (progress reports) to determine if the required
reports had been submitted accurately, and within the timeframes required
by the OJP Financial Guide and the 2012 OVW Financial Grants Management
Guide.




                                        13

Financial Reporting

      The OJP Financial Guide and the 2012 OVW Financial Grants
Management Guide require that grant recipients report expenditures online
using the SF-425 FFR no later than 30-days after the end of each calendar
quarter. We reviewed the four most recent FFRs for each grant, and
determined that financial reporting had been submitted in a timely manner.

      We also reviewed financial reporting for accuracy. According to the
OJP Financial Guide and the 2012 OVW Financial Grants Management Guide,
recipients shall report the actual expenditures and unliquidated obligations
incurred for the reporting period, including cumulative data, on each
financial report. As shown below we determined that financial reporting was
inaccurate in 6 of the 24 reports we reviewed.




                                     14

EXHIBIT 10: FEDERAL FINANCIAL REPORT EXPENDITURE
            ACCURACY
                                                  CUMULATIVE
                                                    GRANT
                                   CUMULATIVE    EXPENDITURES          DIFFERENCE
                                     GRANT           PER            BETWEEN REPORT &
 REPORT       REPORT PERIOD       EXPENDITURES    ACCOUNTING           ACCOUNTING
   NO.       FROM - TO DATES       PER REPORT      RECORDS              RECORDS
 Grant No. 2005-WH-AX-0071
    22      10/01/10 - 12/31/10    $ 533,871      $ 533,871                 -
    23      01/01/11 - 03/31/11        553,000        553,000               -
    24      04/01/11 - 06/30/11        553,000        553,000               -
   25      07/01/11 - 08/31/11         553,000        553,000               -
 Grant No. 2006-WL-AX-0029
    16      04/01/10 - 06/30/10    $ 796,448      $ 799,853           $    (3,405)
    17      07/01/10 - 09/30/10        843,475        843,475                -
    18      10/01/10 - 12/31/10        898,975        901,242              (2,267)
    19      01/01/11 - 03/31/11        900,000        900,000                -
 Grant No. 2007-TW-AX-0063
    12      04/01/10 - 06/30/10    $ 555,607      $ 560,207           $    (4,601)
    13      07/01/10 - 09/30/10        630,237        630,237                -
    14      10/01/10 - 12/31/10        675,000        680,185              (5,185)
    15      01/01/11 - 03/31/11        675,000        675,000                -
 Grant No. 2008-TW-AX-0036
    10      10/01/10 - 12/31/10    $ 724,190      $ 737,250           $ (13,060)
    11      01/01/11 - 03/31/11        842,008        842,008                -
    12      04/01/11 - 06/30/11        896,379        906,580             (10,201)
    13      07/01/11 - 09/30/11        900,000        900,000                -
 Grant No. 2010-TW-AX-0056
    4       07/01/11 - 09/30/11    $ 278,761      $ 278,761                  -
    5       10/01/11 - 12/31/11        431,287        431,287                -
    6       01/01/12 - 03/31/12        580,960        580,960                -
    7       04/01/12 - 06/30/12        748,355        748,355                -
 Grant No. 2010-WH-AX-0057
    4       07/01/11 - 09/30/11    $    58,322    $    58,322                -
    5       10/01/11 - 12/31/11         81,246         81,246                -
    6       01/01/12 - 03/31/12        102,940        102,940                -
    7       04/01/12 - 06/30/12        122,071        122,071                -
Source: ENIPC accounting records; OJP’s Grants Management System.

       We contacted ENIPC officials to determine the reason for the
inaccurate reporting, and determined that the expenses in question were
identified after the quarter was closed and the FFR had been filed. As shown
above, all expenses were rectified in the following reporting period. We
make no recommendations in this area.



                                          15

Progress Reports

      According to the OJP Financial Guide and the 2012 OVW Financial
Grants Management Guide, progress reports are due semiannually on
January 30 and July 30 for the life of the award. To verify the timely
submission of progress reports, we reviewed the last four progress reports
submitted for each grant to determine if the report had been submitted as
required. As shown below, we identified discrepancies related to Grant Nos.
2010-TW-AX-0056 and 2010-WH-AX-0057.

EXHIBIT 11: CATEGORICAL ASSISTANCE PROGRESS REPORT
            HISTORY
 REPORT          REPORT PERIOD
   NO.          FROM - TO DATES           DUE DATE    DATE SUBMITTED     DAYS LATE
 Grant No. 2010-TW-AX-0056
    1         07/01/10 - 12/31/10         01/30/11       01/03/11            0
    2         01/01/11 - 06/30/11         07/30/11       07/05/11            0
    3         07/01/11 - 12/31/11         01/30/12       02/02/12            3
    4         01/01/12 - 06/30/12         07/30/12       07/02/12            0
 Grant No. 2010-WH-AX-0057
    1         07/01/10 - 12/31/10         01/30/11       01/03/11            0
    2         01/01/11 - 06/30/11         07/30/11       07/05/11            0
    3         07/01/11 - 12/31/11         01/30/12       07/02/12           154
    4         01/01/12 - 06/30/12         07/30/12       07/02/12            0
Source: OJP’s Grants Management System; OJP Financial Guide; 2012 OVW Financial
               Grants Management Guide.

       As the report for Grant Number 2010-TW-AX-0056 was only 3 days
late, we do not take issue with the submission. However, we contacted the
ENIPC Program Director to determine the reason for the late submission
associated with Grant No. 2010-WH-AX-0057. The Program Director
provided us with correspondence between the ENIPC and the OVW which
demonstrated that the report had been uploaded to OJP’s Grants
Management System on February 6, 2012, but not formally submitted.
Therefore, OJP’s Grants Management System did not recognize the report,
and the OVW Grant Manager was not able to review it. We determined that
the report submitted 154 days late was an isolated incident, and we make
no recommendations regarding progress report timeliness.

       We also reviewed the progress reports for accuracy. According to the
OJP Financial Guide and the 2012 OVW Financial Grants Management Guide,
the funding recipient agrees to collect data appropriate for facilitating
reporting requirements established by Public Law 103-62 for the
Government Performance and Results Act. The funding recipient should
ensure that valid and auditable source documentation is available to support
all data collected for each performance measure specified in the program
solicitation. We reviewed the two most recent progress reports for each


                                         16

award to determine the accuracy of the accomplishments and statistical data
reported. 6

       In order verify the information reported, we selected a sample of data
from the last two progress reports submitted for each grant and traced it to
supporting documentation maintained by ENIPC officials. For Grant No.
2005-WH-AX-0071, we requested verification in areas concerning:
(1) victim perception of risk of violence upon exiting the housing unit
provided by the ENIPC; (2) follow-up support services; (3) the number of
victims, children, and other dependents not served or only partially served
due solely to the lack of available housing; (4) and, the total number of
transitional housing nights of shelter provided. The ENIPC Program Director
provided extensive documentation to support the claims made on the
progress reports, and we determined that the claims were generally
supported. However the Program Director disclosed that the total number of
transitional housing nights of shelter provided on Progress Report No. 12
was overstated, as during that reporting period the ENIPC had begun
funding the unit using Grant No. 2010-WH-AX-0057. While we stress the
need for accurate reporting, we do not make an overall recommendation in
this area as we determined that the issue did not appear to be ongoing.

      For Grant No. 2006-WL-AX-0029, we requested verification in areas
including: (1) victim services provided by lawyers and other staff,
(2) pending and new legal issues, (3) the number of victims/survivors
served, and (4) victim services provided by grant funded lawyers. In
addition to reviewing the documentation provided by the Program Director,
we also contacted the ENIPC’s Probation Officer to verify accomplishments.
Both individuals provided documentation to support the claims as reported
on the progress reports. We reviewed documentation including legal
assistance forms, orders of protection, safety plans, case files, client logs,
and referrals and determined that claims on the progress reports were
generally supported.

      For the Tribal Government awards (Grant Nos. 2007-TW-AX-0063,
2008-TW-AX-0036, and 2010-TW-AX-0056), we requested verification in
areas including, but not limited to: (1) staff, (2) outreach activities,
(3) offenders, (4) probation issues, (5) victim services, (6) training, and
(7) support services. We reviewed documentation including personnel
records, training agendas, sign-in sheets, counseling records, transportation
logs, orders of protection, offender data sheets, housing records, and case
management details. We determined that the claims on the progress
reports were generally supported.



6
 For Grant Number 2005-WH-AX-0071, we used Progress Report Nos. 11 and 12 as Report
No. 13 was not required.


                                        17

       Finally, for Grant No. 2010-WH-AX-0057 we requested verification in
areas including: (1) housing services, (2) support services, (3) housing
units funded, and (4) victims served. We reviewed documentation related to
the housing units and the victims receiving services and determined that the
claims on the progress reports were generally supported.

       In summary, we determined that valid and auditable source
documentation was provided for the statistical and performance related
information in our sample, and we did not identify significant areas in which
progress reports appeared to be inaccurate. We make no recommendations
in this area.

Compliance with Grant Requirements

      We reviewed each award package and tested a sample of verifiable
special conditions to determine if the ENIPC was in compliance with grant
requirements, and determined that the ENIPC was not in compliance with
the following special conditions:

   •	 The grantee agrees to submit one copy of all reports and proposed
      publications funded by this agreement 20 days prior to public release
      for OVW review and approval. Prior review and approval of a report or
      publication is required if project funds are to be used to publish or
      distribute reports and publications developed under this grant.

   •	 All materials and publications (written, visual, or sound) resulting from
      award activities shall contain the following statements: "This project
      was supported by Grant No. __________________ awarded by the
      Office on Violence Against Women, U.S. Department of Justice. The
      opinions, findings, conclusions, and recommendations expressed in
      this publication/program/exhibition are those of the author(s) and do
      not necessarily reflect the views of the Department of Justice, Office
      on Violence Against Women.”

   •	 The grantee agrees to work with the OVW-sponsored technical
      assistance provider to develop rules, policies, and procedures. The
      grantee agrees to submit the final policies, procedures, and rules to
      the OVW for review and approval.

      We contacted the ENIPC Program Director to determine the reason
why the above special conditions had not been adhered to, and found that
the Program Director was unaware that the conditions existed. We
recommend that the OVW ensure that publications are submitted for OVW
approval as required. We also recommend that the OVW ensure that those
publications contain any disclaimers required by the OVW. We make no
recommendations related to the final item above, as the ENIPC submitted



                                      18

the policies and procedures to the OVW for approval during the course of our
audit.

Program Performance and Accomplishments

      The purpose of the grants awarded to the ENIPC is dependent upon
the grant program. As previously noted, the ENIPC received grants under
the OVW’s Housing Program, Legal Program, and Tribal Program.

       The Housing Program focuses on a holistic, victim-centered approach
to provide transitional housing services that move individuals into
permanent housing. The primary purpose of the Housing Program is to
provide assistance to minors, adults, and their dependents who are
homeless, or in need of transitional housing or other housing assistance, as
a result of fleeing a situation of domestic violence; and for whom emergency
shelter services or other crisis intervention services are unavailable or
insufficient. Grant Nos. 2005-WH-AX-0071 and 2010-WH-AX-0057 were
awarded under the Housing Program.

      The purpose of the Legal Program is to strengthen civil and criminal
legal assistance for victims of sexual assault, stalking, domestic violence,
and dating violence through innovative, collaborative programs. These
programs provide victims with representation and legal advocacy in family,
immigration, administrative agency, or housing matters; protection or stay-
away order proceedings; and other similar matters. The Legal Program
increases the availability of civil and criminal legal assistance in order to
provide effective aid to victims who are seeking relief in legal matters arising
because of abuse or violence. Grant No 2006-WL-AX-0029 was made under
the Legal Program.

       The Tribal Program has multiple goals, and awards funds to develop
and enhance effective plans for tribal governments to respond to violence
committed against Indian women; strengthen the tribal criminal justice
system; improve services available to help Indian women who are victims of
violence; create community education and prevention campaigns; address
the needs of children who witness domestic violence; provide supervised
visitation and safe exchange programs; provide transitional housing
assistance; and, provide legal advice and representation to survivors of
violence who need assistance with legal issues caused by the abuse or the
violence they suffered. Grant Nos. 2007-TW-AX-0063, 2008-TW-AX-0036,
and 2010-TW-AX-0056 were awarded under the Tribal Program.

      In order to assess program performance and accomplishments, we
judgmentally selected two goals from each original award and from each
supplement to that award, if applicable. We requested that the ENIPC
provide evidence demonstrating that the goals and objectives of the award



                                      19

had been met, or are sufficiently in progress. The goals selected for testing
from each award are as follows:

   •	   Grant No. 2005-WH-AX-0071: (1) Hire the staff members necessary
        to provide transitional living services; (2) provide two transitional
        living units; (3) provide transitional housing services to two victims of
        domestic violence, dating violence, sexual assault, and/or stalking who
        meet program eligibility guidelines; and (4) provide support services
        designed to enable individuals who are fleeing domestic violence,
        dating violence, sexual assault, or stalking to locate and secure
        permanent housing.

   •	   Grant No. 2006-WL-AX-0029: (1) Hire staff members necessary to
        provide legal services; (2) provide community legal education events;
        (3) provide direct comprehensive legal services to sexual assault,
        stalking, domestic violence and dating violence victims; and
        (4) collaborate with community partners to provide quality
        representation to victims of domestic violence, dating violence, sexual
        assault, and stalking.

   •	   Grant No. 2007-TW-AX-0063: (1) Increase the ability of tribal law
        enforcement and court personnel to respond to domestic violence,
        sexual assault, stalking and dating violence committed against Indian
        women, and (2) improve services that are available to help victims of
        domestic violence, dating violence, sexual assault, elder abuse, and
        stalking.

   •	   Grant No. 2008-TW-AX-0036: (1) Strengthen the tribal criminal
        justice system to hold offenders accountable, and (2) provide
        comprehensive and culturally competent advocacy services to victims
        of domestic violence, sexual assault, dating violence or stalking to
        Native Americans, or their partners.

   •	   Grant No. 2010-TW-AX-0056: (1) Present advanced law enforcement
        training, and (2) present workshops to promote intervention
        techniques, the positive impact of traditional Native American practices
        with emphasis on sanctity of women and children, and collaboration
        with behavioral health services.

   •	   Grant No. 2010-WH-AX-0057: (1) Continue and increase support
        services offered to clients of domestic violence, dating violence, sexual
        assault, or stalking, and; (2) continue the culturally competent staff to
        provide services throughout the project period to victims of domestic
        violence, stalking, sexual assault, and dating violence.




                                        20

       To determine if the goals and objectives of each award had been
achieved, we conducted interviews with the ENIPC Program Director and
Transitional Housing Director, reviewed source documentation, and
contacted an ENIPC partner. ENIPC officials were able to support their
claims of achievement pertaining to the goals stated above. We found no
indication that the ENIPC would be unable to meet current or future
objectives of grant related programs, and we make no recommendations in
this area.

Closeout Activity

       According to the OJP Financial Guide, award recipients have 90 days
after the end date of the award to close out the award. Award recipients
must also provide a cash reconciliation, make the final drawdown, and
submit all required final reporting to the granting agency. We determined
that four of the six grants in this audit have reached their closeout date.

EXHIBIT 12: CLOSEOUT STATUS OF GRANTS AWARDED TO THE

            ENIPC

                                               REQUIRED     CLOSEOUT STATUS
                                                PROJECT     PER OJP GRANTS
                        PROJECT     PROJECT    CLOSEOUT       MANAGEMENT
       AWARD NO.       START DATE   END DATE     DATE            SYSTEM
    2005-WH-AX-0071     09/01/05    08/31/11   11/30/11      Final Approved
    2006-WL-AX-0029     07/01/06    03/31/11   06/30/11      Final Approved
    2007-TW-AX-0063     09/01/07    02/28/11   05/30/11      Final Approved
    2008-TW-AX-0036     08/01/08    07/31/11   10/30/11      Final Approved
Source: OJP’s Grants Management System.

       We did not identify any exceptions related to reporting or drawdown
activity. However, for Grant No. 2005-WH-AX-0071, we determined that
$11 had been transferred to Grant No. 2010-WH-AX-0057, and for Grant No.
2007-TW-AX-0063 we determined that $267 had been transferred to Grant
No. 2008-TW-AX-0036. The OJP Financial Guide requires that award
recipients report the amount of federal funds returned (unobligated balance
of federal funds) on line 10(h) of the final SF-425. Any unobligated or
unexpended funds are to be de-obligated from the award amount. We
consider the amounts to be immaterial, and we make no financial
recommendations in this area. However, to eliminate the potential for future
unallowable transfers, we recommend that the OVW ensure that any
unobligated / unexpended funds are returned to the awarding agency as
required.




                                      21

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant, and to determine program performance and
accomplishments. We examined the ENIPC’s accounting records, financial
and progress reports, and operating policies and procedures, and found:

     •	   there was no process in place to effectively ensure that charges to
          the grants are allowable;

     •	   $347,578 in unallowable payroll costs for Grant Nos.
          2005-WH-AX-0071, 2007-TW-AX-0063, 2008-TW-AX-0036, and
          2010-TW-AX-0056;

     •	   $81,068 in unallowable fringe costs for Grant Nos.
          2005-WH-AX-0071, 2007-TW-AX-0063, 2008-TW-AX-0036, and
          2010-TW-AX-0056;

     •	   $13,970 in unsupported training and travel costs for Grant Nos.
          2005-WH-AX-0071, 2008-TW-AX-0036, and 2010-TW-AX-0056;

     •	   $83,328 in unallowable training and travel costs for Grant Nos.
          2005-WH-AX-0071, 2006-WL-AX-0029, 2007-TW-AX-0063,
          2008-TW-AX-0036, and 2010-TW-AX-0056;

     •	   $15,011 in unallowable property, automobile, and liability
          insurance charges for Grant Nos. 2005-WH-AX-0071,
          2007-TW-AX-0063, 2010-TW-AX-0056, and 2010-WH-AX-0057;

     •	   $25,137 in indirect cost charges in excess of the amount approved
          by the OVW for Grant Nos. 2005-WH-AX-0071, 2006-WL-AX-0029,
          2007-TW-AX-0063, and 2008-TW-AX-0036;

     •	   $7,174 in unallowable budget transfers for Grant No.

          2005-WH-AX-0071;


     •	   publications were not pre-approved as required by the OVW;

     •	   ENIPC did not ensure that publications contained the required
          language from the OVW,

     •	   Transitional Housing Policies and Procedures were not submitted to
          the OVW for approval as required, and;




                                     22

     •     unallowable transfers between awards at closeout.

We recommend that the OVW coordinate with the ENIPC to:

     1.	     Implement policy to ensure that charges to the grants are
             allowable by the OVW.

     2.	     Remedy the $347,578 in unallowable payroll costs.

     3.	     Remedy the $81,068 in unallowable fringe costs.

     4.	     Remedy the $13,970 in unsupported training and travel costs.

     5.	     Remedy the $83,328 in unallowable training and travel costs.

     6.	     Remedy the $15,011 in unallowable property, automobile, and
             liability insurance charges.

     7.	     Remedy the $25,137 in unallowable indirect cost charges.

     8.	     Remedy the $7,174 in unallowable budget transfers.

     9.	     Ensure that grant funded publications are submitted to the OVW
             for approval as required.

     10.	    Ensure that publications made possible by grant funds include
             the required disclaimer.

     11.	    Ensure that unobligated grant funds are returned to the OVW as
             required.




                                      23

                                                              APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objectives of our audit are to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, including personnel and indirect costs, (4) budget
management and control, (5) financial status and progress reports,
(6) compliance with grant requirements, (7) program performance and
accomplishments, and (8) closeout activity. We determined that property
management, matching, and program income were not applicable to these
awards.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in this report, the criteria
we audit against are contained in the OJP Financial Guide, the 2012 OVW
Financial Grants Management Guide, and the award documents.

      Our audit concentrated on, but was not limited to, September 12,
2005, the award date for Grant No. 2005-WH-AX-0071, to August 24, 2012,
the day our field work concluded. This was an audit of OVW Grant
Nos. 2005-WH-AX-0071, 2006-WL-AX-0029, 2007-TW-AX-0063,
2008-TW-AX-0036, 2010-TW-AX-0056, and 2010-WH-AX-0057. The ENIPC
has drawn a total of $3,917,804 in grant funds as of August 14, 2012.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we performed sample testing in five areas,
which were grant expenditures (including personnel expenditures), financial
reporting, progress reports, compliance with grant requirements, and
program performance and accomplishments. In this effort, we employed a
judgmental sampling design to obtain broad exposure to numerous facets of
the awards reviewed, such as dollar amounts, expenditure category, or risk.
However, this non-statistical sample design does not allow a projection of
the test results for all grant expenditures or internal controls and
procedures.

      In addition, we evaluated internal control procedures, drawdowns,
indirect costs, budget management and controls, and closeout activity.
However, we did not test the reliability of the financial management system


                                      24

as a whole, and reliance on computer based data was not significant to our
objective.




                                    25

                                                                      APPENDIX II


                 SCHEDULE OF DOLLAR-RELATED FINDINGS

DESCRIPTION                                             AMOUNT             PAGE

Unallowable Costs:

   Unallowable Payroll                                 $347,578               8

   Unallowable Fringe Benefits                           81,068               10

   Unallowable Training and Travel                       83,328               11

   Unallowable Insurance                                 15,011               11

   Unallowable Indirect Costs                            25,137               12

   Unallowable Budget Transfers                           7,174               13

   Total Unallowable Costs                            $559,296

Unsupported Costs:

   Unsupported Training and Travel                       $13,970              11

   Total Unsupported Costs                              $13,970

Total Questioned Costs 7                              $573,266




      7
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.


                                           26

                                                                                      APPENDIX III

    EIGHT NORTHERN INDIAN PUEBLOS COUNCIL
      RESPONSE TO THE DRAFT AUDIT REPORT



                                                                                                  I
 Eight Northern Indian Pueblos Council. Inc.
 Responses to DO.T Audit Report


 Internal Control Environment
                                                                                                  f
 ENIPC has proper and thorough internal policy and CQntrols to assure that grant costs are
allowable and in accordance with grant awards. ENIPC management and the
Peacekeepers' program director wil! work to ensure the internal JXI1icy and controls are
followed. ENIPC will seek direction from our DOJ/OVW program officer when we
hav!: concem~ about charges before we incur the expense. ENIPC disputes the linding
that we have no process in place as our internal controls are well documented and
revealed no material weakness in the aunua! A- 133 audit.

Unallowable Payroll

The finding for the payroll cost is a difference between the position title in our payroll
and the position name in the grant proposal and budgets. Additionally, the find ing is
based on a difference of opinion of whether or not a GAN is ncedcd for temporary
pen;onnei assignments. ENIPC did no! charge salary of an cmployee to a gran! that
didn't work on the goals and objectives of a particular grant. During vacancies ENIPC
had employees that were qualified to perform like and related dutie~ th at arc com patible
with their own. The employec had the skills, background, education and qualities to
perform the vacant position.

Employees' titles in the payroll records do not always match the position in a grant. The
job descriptions and the duties performed are what matters. Our employees are selected
and matched with thc skills that are required to perform the posi tion's duties in the grant.
During a vacancy an administrative assistant position 's d utic~ wcre tcmporarily covered
by the receptionist to allow the grant work to continue. The individuals were well
qualified to temporarily cover the POSitlOllS. Hiring temporary workers to peri()fTn highl y
ski lled positions requires extensive training and creates other issues. It is better to have a
Ir.~ined staff member who is famil iar with the program cover the duties during vacancies.
No extensive trai ni ng is required and work on the award's objectivcs continuc.

       Grant No. 2005-WH-AX-0071:

       The program administrative assi~l!mt performed duties for the transitional housing
       position. Many nf duties that arc required by this position in the grant arc clerical
       in nature and can be perfonned by the administrative as~i stant . Duties such as
       arranging temporary housi ng for the victim and the ir family, writing up requests
       for payment for recurring payments for the hous ing units and related expenses,
       creating requests for payment for vouchcrs for emergency expense for victims,
       and helping the victim advocates getting the victims and their family to temporary
       housing. There wa" no change in scope of work, duration, activi ties. or other
       significant areas covered by the grant. Grant funds were continued 10 be used for




                                               27

 the specific purpose of the grant. The position does not qualifY as key personnel;          I
 the transitional housing position is not the program manager. ENIPC has the right           I
                                                                                         !
 to a~sign qualified per~onne! to a grant position due to vacancies in the interest of
 providing continued services.

 ENIPC disputes the finding and firmly believes that the replacement individual
 was just a temporary replacement and not a new position. No GAN was required
 as the activities nor the scope of work changed.

 Grant No. 2007-TW-AX-0063:
                                                                                             I
The Peacekeeper program requested and employed two SaUerer's Reeducation                     I
Coordinators from the end of January 2010 until the grant ended. The GAN                     r
entered was for two positions. Both staff members were required to perform the
duties of the batterer's reeducation program and performed the required duties
that were needed 10 accomplish the grant's goals and objectives.

ENIPC disputes this finding and maintains its position that these individuals were
required and did complete the goals and objectives of the grant. No GAN was
required due to no change in the scope of work or activities.

The Receptionist replaced the Administrative Assistant on this grant after the
Administrative Assistant's cmploymcni with ENTrc ended. The duplication the
                                                                                         l
                                                                                         !
audit refers to is one pay period in which the fonner employee was paid for
accrued time and the new employee was paid for time worked. Both individuals
were not employed at the same time nor performed the same duties. No GAN
was required and an equally qualified individual replaced another individual and
no change in the scope of work or activities occurred_ ENIPC has the discretion          I
                                                                                         ,
to use employees with like skills on grants when a vacancy occurs.                       I
                                                                                         I
Grant No. 2008-TW-AX.{)036:                                                              I

ENIPC used CUtTent employees to a<;sume duties of vacant positions when needed.

The Grants Managcr/Advocatc, Prosecutor, and Community Coordinator filled in
with required duties of the vacant advocate position. These individuals were
performing duties as approved by OVW. There was no material change in duties,
scope of work, dW'ation, activities, or other significant areas of the grant by
ENIPC using these skilled individuals. Hiring a temporary worker to perform
advocate duties requires extensive training and creates other issues. It is belter 10
have a trained staff member who is familiar with the program cover the duties
during vacancies.                                                                        I
                                                                                         ,
ENTPC disputes this finding and maintains its position that the replacement
individuals wcre just temporary replacements and not new positions, so no GAN
                                                                                         I
                                     2


                                                                                         I
                                      28

         was required. This is further evidenced by the fact these employees remained in
         those positions for a limited number of pay periods.                                   l
                                                                                                I

         The receptionist met the requirements to assume the duties oflhe vacant program
         secretary; a GAN was not required. Additionally, in support of above there was
         no change in scope of work, durntion, activities, or other significant areas ru;
         outlined in the grant.

         ENIPC disputes this finding and maintains its position that the replaCl!ment
         individual was just a temporary repl!lccmcnt ami not !I newly created position.

        Grant No. 2010-TW-AX-OOS6

        The advocate positions wcre v!lcanl and ENIPC chose to usc the prosecutor and
        probation officer to assume the duties of these vacant positions temporarily.
        Again, thesc individuals were perfonning duties approved by DOJ/OVW. ENlPC
        disputes this finding and maintains its position that the replacement individuals
        Wt!fe not for new positions. No GAN was required.

        The Lead Advocate worked as the Community Outreach Coordinator for a short
        time and the payroll title was not changed. Again, no GAN was necessary for this
        temporary placement. There was no material change in duties, scope of work,
        duration, activities, or other significant areas of thc grant by ENJPC using this
        qualified individual. Hiring a temporary worker 10 perfonn advocate duties
        requires extensive training and creates other issues. It is more efficient to have a
        tmincd staff member who is fami liar with the program cover the duties during a
        vacancy.

        ENIPC disputes this finding on this position and maintains its position that the
        replacement individual was not a newly created position.

Summary

ENIPC maintains their prerogative to move qualified individuals into positions without a
title change to cover vacancies and accomplish the objectives orlhc grants.
ENIPC management has the Tight to choose the correct, trained, and skilled employee to
perfonn the dulies or approved positions in order to accomplish the goals and objectives
orthe awaTd~. ENJPC views these disputed payroll amounts as allowable.
                                                                                                •
UnaUowable fo'ringc Benefit
                                                                                                1
ENIPC contends the disputed fringe benefit amounts related to thc disputed payroll
                                                                                                :
                                                                                                !
amOllllts are !llIowablc. The fringes associated with the disputed payroll amounts were
necessary to employ the qualified individuals that filled vacancies. 'Ibere was no
matcrial change in duties, scope of work, duration, activities, or other significant areas of
the grant by ENJPC using these qualified individuals; thus, no GAN would be required.


                                              J




                                              29

 Hiring temporary workers to pcrfunn required duties would demand extensive training
 and creates other issues. It is better to have a trained staff member who is familiar with
 the program cover duties when vacancies occur.

 ENIPC disputes this finding and again maintains its position that replacement individuals
 were not newly created positions.

 Unsuppo rted Training Costs

ENIPC provided the support for requested costs and these C{lsts were reasonable and
necessary to accomplish the goals oflhe grants. Additionally, ENlPC made efforts to gel
approval from the DOJ/OVW project officer and Ollr calls and emails were neyer
answered, New and mnovatlvc methods to deal with domestic violence are put forward
on a continuing basis. ENIPe has worked to keep the staff of Peacekeepers up to date on
the latest, most progressive and safest methods 1 protect the victims we engage wlth.
                                                   0
lbese disputed training costs were necessary to perfonn the objectives of the grant and to
continue to support the victims and their families using the best methodology. Staff
attendt:d trainings to stay abreast of the changes in any legal requirement and methods of
support for victims. ENlPC disputes this finding. Their related costs were required to
perform the objectives of the award.




                                                                                               I
Unallowable TrAining Costs

ENIPC contends these costs were reasonable and neces.~ry to accomplish the goals of
the grants. ENlPC made efforts to get approval from the OOJ/OVW project officer and
our calls and emails were never answered. Peacekeepers' staff needs to continually stay
up to date with training 10 support the victims and understand the changes in the legal
environment. New and innovative methods on how to deal with domestic violence arc
taught on a continuing hasis. ENII'C has worked to keep the staff of Peacekeepers
educate on the latest, progres~ive and safest methods to protect the victims we engage
with. Much orthe training availahle to our staff is cultura!Jy sensitive and has been
evolving for several years. £NIPC sought OVW support in these traimng efforts but did
not rtteive it. There was no material change in duties, scope of work, duration, activities,
or other significant areas of the grant by ENIPC. The disputed trainings and related
travel expenses were necessary to support the grant award. ENII'C disputes this finding
and remains finn on its justification.

Unallowable Insurance Costs

ENIPC policy is that grant programs must cover the general liability insurance and auto
insumnce ba~ nn their portion of the revenue rating for general liability and the direct
cost to insure program vehicles. Ibe program director again was not able to get the OAN
entered as the OVW program officer never returncd phone calls or answered emails.
ENfPC believes this cost 10 be nonna!, customary, reasonable, necessary and allowable in
the normal course of doing business. There was no material change in the scope of work,
dllnltion, activities, or other significant areas of the grant by ENIPe paying for insurance


                                             4




                                             30

 to ensure the grant objectives were met. Addilionally, these were normal, allowable
 expenditures in years past never challenged by OVW. lbis finding is disputed.

 Unallowable Indirect Costs

 ENIPC did calculate correctly indirect costs in accordance and as approved by the
 National Business Center and HHS indirect agreements. It is been ENIPC's
 under.-;tanding that the agreement on our negotiated indirect cost rate is accepted by all
our funding agencies. We state this because indirect cost rate agreement is part oflhe
grant application and approved awards. New negotiated rales are to be charged based on
the indirect cost agreement. Multiple year grants are charged for the approved negotiated
                                                                                              I
indirect cost rate ba~ed on the dates sc! in the indirect cost agreements. Indirect



                                                                                              I
negotiations have been simplified so tbat grantees havc only onc agency to negotiate an
agreement with. ENIPC applied the approved indirect cost rates to the 001 awards. The
approved rate was and is detennined by either the National BIL'Iiness Center or HHS.
001 may not agree with the rate, but never challenged the rate. Hence, ENIPC contends
that indirect cost rates and costs charged to thc awards are allowable. ENUJC disputes this
finding because 001 does not set the indirect rate and there was no materiaJ change in the
scope of work, duration, activities, or other significant areas of the grant by ENIPC
charging the approved negotiated rate.


Budget Management and Control

ENl PC would have submitted a GAN for the budget adjustments needed to accomplish
the goals and objectives of2005-WH-AX-0071 ifstaffhad direction from the program
officer. The costs were necessary and reasonable in respect to the funding needed to
support the grant. This finding is worded in a way to make it look as though ENIPC has
over-spent thc grant award. ENlPC management transferred under-spent funds in
different direct cost categories to support the functions of staff on the project. We
increa~ed personnel, fringes and supplies (0 provide the needed fWIds to meet the goals
and objectives of this grant. Without the transfer of these funds we may have failed to
meet the award objectives. 'Ibere were no material changes in duties, scope of work,
duration, activities, or other significant areas of the grant by ENIPe moving those funds.
ENIPe dispute~ this finding based on program needs and objectives being met.

Closeout Activity

Thc program officer never contacted ENTPC personnel regarding close-out policies,
requirements, or eoncerns_ On Gran! No. 200S-WH-AX-0071, the transfer of$267 "''as a
bookkeeping correction. Indirect cost posting for the two grants, 2010-WH-AX-OOS7
and 2007-TW-AX-0063 were in crror, and recorded in the general ledger to the wrong
grant which was 2005-WH-AX-0071. ENiPC is fully aware of the need to correctly
record and report financial infonnation and we have checks and balances in placc to
detect errors and correct those errors before we certify a close-out on a grant award. In
this finding, the transfer was a correction and not a transfer to move unobligated funds.


                                            5




                                            31

                                                                                            I

Management will ensure in the future if there are any unobligated grant funds held by
ENIPC they will be returned to DOJ/OVW at clOse-Ollt. In this finding ENIPC contends
then: were no unobligated funds .                                                       I
                                                                                        r
                                                                                        I
                                                                                        I
                                                                                        I
                                                                                        ,
                                                                                        ,



                                                                                        I
                                                                                        I
                                                                                        ,
                                                                                        !




                                                                                        ,
                                                                                        1
                                                                                        I
                                                                                        I


                                        6




                                         32

                                                                                                   APPENDIX IV

            OFFICE ON VIOLENCE AGAINST WOMEN
           RESPONSE TO THE DRAFT AUDIT REPORT
                                                           l .S . Ocpartlllt"lIt 01' Ju .. tkt.'




                                                           \I   "m ,., "(    'Oilll


                                                                                         Ja nu ary 15. 20 13


MEMOIlANDUM


TO :                    David Sheeren
                        Regional Audit Manage r
                        De n ver RegionaJ Audit O ffi ce

FROM:                   Bea Hanson ../] ~
                        Ac ting Directo~ '
                        Office on Violence Agai n st Wo m e n

                        Rodney Samue ls          - \( ~
                        S taff Accounta n t/A ud it Liaison
                        Offiee o n Violence A gainst Women

SUBJECT:                Dran Audit Repo rt· Aud it of the Offi ce on Vio le nce Aga in st Women
                        G rant s A warded to the E ig ht Northe rn Indian P u eb los Counc il. Inc ..
                        Peacekeepers. San J u a n Pueblo. New Mexico


This mCIll.orand um is in response to yo u r correspondence datt:d December 10.20 12
transmi tt ing the above draft a udit re p o rt for E ight No rthe rn Lndi a n P ucb los Cou ncil. We
conside r the subject repo rt resolvcd a nd request written acceptance of thjs ac ti o n fro m yo ur
offi ce .

T h e report co nta in s eleven recomm enda ti ons w hi ch inc lude $13.970 in unsuppo rted costs a nd
$559.296 in unallowablc cos ts. T h e Office on Violence Aga ins t Wom e n (OVW) agrees with
the reco mmendations and is committed to working w it h the grantee to addrt:ss each ite m and
bring the m to a c lose a s quick ly as poss ibl e. T h e fo ll owing is an analysis of the a udit
reco m mendations:




                                                   33

1.   Im pl eme nt policy to ensure tbat c h anges to tbe gra nts arc allowab le by the
     OVW.

     We agree wi th th is recom me nd atio n . We will coordinate the grantee to implement
     po licy to e nsure that c ha nges to the grants are a ll owable.

2.   Re med y 5 347,578 in u n a ll owable payroll costs.

     We agree wi th thi s recomme ndation. We will coo rd inate with the grantee to remedy
     the $347.578 in unallowa ble payroll costs.

3.   Rem edy $ 81,068 in unallou'a blc fringe costs.

     We agree with ulis recommendat io n . We w ill coord inate wi th the grantee to remedy
     the $ 81,068 in unall owa ble fringe costs.

4.   Remedy the $]3,970 in unsup p ort ed tr"ai n ing an d tnlvcl costs.

     We a gree w ith th is recommendat ion . We w ill coordinate w it h the g rantee to re medy
     the $ 13.970 in u nsu pported tr:linin g and travel costs.

5.   Remed)' 583,328 in unallowa b le .)"aining and trave l costs.

     We a g ree w ith this recomme ndation . We wi ll coordi n ate wi th the grantee to rem edy
     $ 83 ,328 i n una llowable tra in in g and trave l costs.

6,   Re m edy S15.0 11 in unallow llb lc p r o p e rty,   ~ltl tomobi l c,   a nd li a bi li ty inSUl'ance
     c harges.

     We ag ree with th is reconullcndat ion . We wi ll coord inate wi th th e gran tee to remedy
     $15,0 II in unallo wable p roperty. automobile , a nd lia bi lity insurance c harges .

7.   R emedy 525,137 in unallowa ble indirect cos t ch al'gcs,

     We a gree w ith th is recommenda tion. \Ve w ill coordinate w ith the grant ee to remedy
     $25. 13 7 in unallowab le indirect co st c harges.

8.   Rc mcd y $ 7 ,174 in unn llowablc b udget t rll nsf('rs.

     We agree with this recommendation. We wi ll coordinate wi th the grnntee to rem edy
     $7.174 in un a llowab le budge t transfers.




                                             2




                                            34

      9.        E n s u re th a t g rant fun d ed p u bl ic a tion s arc sub m itted to the OVW fo r a p proval
                lIS req u ired.

                We agree with this recommendati on. We will coordiJlate with the g ra ntee to ensure
                that gra nt funded publicatio ns are submi ned to the OVW for app roval as req uired .

      10.       En su r e th at p Ub lica t ions mnde possible by gnan t fu n ds in c lu d e thc requ ire d
                d isc la imer.

                We a gree with this recommendati o n . We w ill coordinate w ith th e grantee to ensu re
                tha t publications m ade possible by grant funds include the req uired disclaimer.

      ] 1.      E ns ure t h at un ob lig ate d g r nnt fu n d s are r e t u rned to th e O v\V as required .

                We agree wi t h this recommendati on. W e w i ll coord inate w ith the g ran tee to ensure
                thut unobligated grant funds are returned to the OVW as requ ired .

We a pprec ia te the opportunity to review and com me n t on t he d raft report. We w i ll contin ue to
work with the grantee, to address the recomm endations. I f yo u have any q uestions or req uire
add itional info rm ation. p le ase con tact Rodney Samuels of m y s taff at (202) 514-982 0 .

cc:          Lo uise M. D uHamel
             AC ling Assista nt Di rector
             Audit Liaison Gro up
             Justice Managem ent Division

             A ngel a Wood
             Budget O nicer
             Office on Violence Against Women

             Lorraine Edmo
             Associate Director. Tribal
             Office on Vio lence A gainst Women




                                                         3




                                                        35

                                                               APPENDIX V

                  OFFICE OF THE INSPECTOR GENERAL

                 ANALYSIS AND SUMMARY OF ACTIONS

                   NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the ENIPC and the
OVW. The responses are incorporated into Appendixes III and IV of this
final report. The following provides the OIG analysis of the responses and
summary of actions necessary to close the report.

1.	   Resolved. The OVW concurred with our recommendation that the
      ENIPC implement policy to ensure that charges to the grants are
      allowable. In their response, OVW officials stated that that they will
      coordinate with the ENIPC to implement policy to ensure that changes
      to grants are allowable. In their response, ENIPC officials disputed
      that the ENIPC has “no process in place as our internal controls are
      well documented and revealed no material weakness in the annual
      A-133 audit.” Our report did not state that the ENIPC is lacking a
      policy; our report demonstrates that the policy is not being effectively
      implemented. The ENIPC stated that it “will work to ensure the
      internal policy and controls are followed.”

      This recommendation can be closed when we receive evidence that the
      OVW has coordinated with the ENIPC to ensure that policy has been
      implemented to ensure that charges to the grants are allowable.

2.	   Resolved. The OVW concurred with our recommendation to remedy
      the $347,578 in unallowable payroll costs. In their response, OVW
      officials stated that they will coordinate with the grantee to remedy the
      unallowable payroll costs. ENIPC officials provided additional
      explanation for the many instances in which they internally approved
      personnel changes or replacements, but did not dispute that they had
      not received pre-approval from the OVW. Rather, they noted that the
      “finding is based on a difference of opinion of whether or not a GAN is
      necessary for temporary personnel assignments.”

      The opinion of ENIPC officials does not negate the fact that the OJP
      Financial Guide requires that award recipients initiate a Grant
      Adjustment Notice (GAN) for a budget modification for changes in
      scope, duration, activities, or other significant areas which include, but
      are not limited to, making changes to the organization or staff with
      primary responsibility for implementation of the award.




                                      36

      This recommendation can be closed when we receive evidence that the
      OVW has coordinated with the ENIPC to remedy the $347,578 in
      unallowable payroll expenditures.

3.	   Resolved. The OVW concurred with our recommendation to remedy
      the $81,068 in unallowable fringe costs. In their response, OVW
      officials stated that they will coordinate with the grantee to remedy the
      unallowable fringe costs. ENIPC officials again noted that, in their
      opinion, a GAN would not have been required for the many instances
      of personnel changes. Again, the grantee’s opinion does not negate
      policy established in the OJP Financial Guide or the award
      documentation.

      This recommendation can be closed when we receive evidence that the
      OVW has coordinated with the ENIPC to remedy the $81,068 in
      unallowable fringe charges.

4.	   Resolved. The OVW concurred with our recommendation to remedy
      the $13,970 in unsupported training and travel costs. In their
      response, OVW officials stated that they will coordinate with the
      grantee to remedy the unsupported training and travel costs. ENIPC
      officials maintain that the training costs were necessary to perform the
      objectives of the grant. However, those officials did not provide
      documentation which supported the claim that the trainings were
      provided by the OVW.

      This recommendation can be closed when we receive evidence that the
      OVW has coordinated with the ENIPC to remedy the $13,970 in
      unsupported training and travel costs.

5.	   Resolved. The OVW concurred with our recommendation to remedy
      the $83,328 in unallowable training and travel costs. In their
      response, OVW officials stated that they will coordinate with the
      grantee to remedy the unallowable training and travel costs. ENIPC
      officials maintain that the costs were reasonable and necessary to
      accomplish the goals of the grants. Again, the opinion of ENIPC
      officials does not negate the fact that pre-approval is required by the
      granting agency for training events that are not sponsored by the
      OVW. It is the grantee’s responsibility to read, understand, and
      adhere to the requirements of the award documentation.

      This recommendation can be closed when we receive evidence that the
      OVW has coordinated with the ENIPC to remedy the $83,328 in
      unallowable training and travel costs.




                                      37

6.	   Resolved. The OVW concurred with our recommendation to remedy
      the $15,011 in unallowable property, automobile, and liability
      insurance charges. In their response, OVW officials stated that they
      will coordinate with the grantee to remedy the unallowable property,
      automobile, and liability insurance charges. ENIPC officials stated that
      “ENIPC policy is that grant programs must cover the general liability
      insurance and auto insurance based on their portion of the revenue
      rating for general liability and the direct cost to insure program
      vehicles,” and noted that the charges were included in other grant
      budgets. No costs were questioned for budgeted items. It is the
      responsibility of ENIPC to budget all necessary items and obtain
      agency approval for those items for each application it submits.

      This recommendation can be closed when we receive evidence that the
      OVW has coordinated with the ENIPC to remedy the $15,011 in
      unallowable property, automobile, and liability insurance charges.

7.	   Resolved. The OVW concurred with our recommendation to remedy
      the $25,137 in unallowable indirect cost charges. In their response,
      OVW officials stated that they will coordinate with the grantee to
      remedy the unallowable indirect cost charges. ENIPC officials did not
      address the charges which were in excess of the total indirect costs
      approved by the OVW. Rather, their response addressed the rate
      itself, while our recommendation is in regard to charges which exceed
      the budgeted amount approved by OVW. As stated in this report, each
      OVW approved budget contains a total amount which may be charged
      to indirect costs, and both the OJP Financial Guide and the 2012 OVW
      Financial Grants Management Guide require that pre-approval be
      obtained before transferring money into or out of the indirect cost
      category. The ENIPC charged $25,137 in excess of the amount which
      had been approved by the OVW without obtaining approval for the
      additional costs.

      This recommendation can be closed when we receive evidence that the
      OVW has coordinated with the ENIPC to remedy the $25,137 in
      unallowable indirect cost charges.

8.	   Resolved. The OVW concurred with our recommendation to remedy
      the $7,174 in unallowable budget transfers. In their response, OVW
      officials stated that they will coordinate with the grantee to remedy the
      unallowable budget transfers. ENIPC officials claim that they would
      have submitted a GAN for the budget adjustments needed to
      accomplish the goals and objectives of the award had they received
      direction from the OVW program manager. Those officials also state
      that our finding “is worded in a way to make it look as though ENIPC
      has over-spent the grant award.” We refer ENIPC officials to page 13



                                      38

       of this report, which discusses the issue and the recipient
       responsibilities related to budget transfers. At no point did the OIG
       make a statement, finding, or recommendation that the ENIPC had
       “overspent the award.” It is the recipient’s responsibility to read,
       understand, and adhere to the terms and conditions of the award.

       This recommendation can be closed when we receive evidence that the
       OVW has coordinated with the ENIPC to remedy the $7,174 in
       unallowable budget transfers.

9.	    Resolved. The OVW concurred with our recommendation to ensure
       that grant funded publications are submitted to the OVW for approval
       as required. The OVW stated in its response that it will coordinate
       with the grantee to ensure that publications are submitted to the OVW
       for approval. ENIPC officials did not respond to this recommendation.

       This recommendation can be closed when we receive evidence
       indicating that the OVW has coordinated with the ENIPC to ensure that
       grant funded publications are submitted to the OVW for approval as
       required.

10.	   Resolved. The OVW concurred with our recommendation to ensure
       that publications made possible by grant funds include the required
       disclaimer. The OVW stated in its response that it will coordinate with
       the grantee to ensure that publications include the required disclaimer.
       ENIPC officials did not respond to this recommendation.

       This recommendation can be closed when we receive evidence that the
       OVW has coordinated with the ENIPC to ensure that publications made
       possible by grant funds include the required disclaimer.

11.	   Resolved. The OVW concurred with our recommendation to ensure
       that unobligated grant funds are returned to the OVW as required. In
       their response, OVW officials stated that they will coordinate with the
       grantee to ensure that unobligated grant funds are returned to the
       OVW. ENIPC officials claimed that the transfers were the result of
       internal accounting errors. Additionally, those officials claimed that
       “The program officer never contacted ENIPC personnel regarding
       close-out policies, requirements, or concerns.” Again, it is the
       grantee’s responsibility to read, understand, and adhere to the terms
       and conditions of the award.

       This recommendation can be closed when we receive evidence that the
       OVW has coordinated with the ENIPC to ensure that unobligated grant
       funds are returned to the OVW as required.




                                       39

